United States Department of Agriculture
Office of Inspector General




State Fraud Detection Efforts for the
Supplemental Nutrition Assistance
Program




                                          Audit Report 27703-0002-HY
                                          January 2012
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:          January 27, 2012

AUDIT
NUMBER:        27703-02-Hy

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Controls, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit


SUBJECT:       State Fraud Detection Efforts for the Supplemental Nutrition Assistance
               Program (SNAP)


This report presents the results of our audit of State Fraud Detection Efforts for the
Supplemental Nutrition Assistance Program. Your response to the official draft report,
dated, December 15, 2011, is included in its entirety in the audit report, with excerpts and the
Office of Inspector General’s position incorporated into the relevant sections of the report.
Based on the written response, we have accepted management decision for all
recommendations in the report, and no further response to us is necessary.

Please note that Departmental Regulation 1720-1 requires final action to be reached on all
recommendations within 1 year of management decision to avoid being listed in the
Department’s annual Performance and Accountability Report. Please follow your office’s
internal procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background...............................................................................................................4
Objectives ..................................................................................................................6
Section 1: FNS Needs to Strengthen Its Fraud Detection Efforts ......................7
   Finding 1: EBT System Management Reports Need to Be Better Utilized ...7
         Recommendation 1 ......................................................................................10
         Recommendation 2 ......................................................................................11
   Finding 2: FNS Needs to Strengthen Its Oversight of State Fraud Detection
   Units .....................................................................................................................11
         Recommendation 3 ......................................................................................13
         Recommendation 4 ......................................................................................14
Scope and Methodology.........................................................................................15
Abbreviations .........................................................................................................17
Exhibit A: Implementation of Prior Audit Recommendations ........................18
Exhibit B: EBT Management Reports Reviewed ..............................................19
Agency’s Response .................................................................................................21
State Fraud Detection Efforts for the Supplemental Nutrition
Assistance Program

Executive Summary

The Supplemental Nutrition Assistance Program (SNAP) helps 42 million low-income
individuals and families to purchase food they need for healthy eating choices by supplementing
their incomes with benefits through the use of an electronic benefits transfer (EBT) system. On
February 17, 2009, Congress enacted and the President signed into law the American Recovery
and Reinvestment Act (Recovery Act) of 2009,1 to promote economic recovery and assist those
most impacted by the economic downturn. The Recovery Act provided the Department of
Agriculture (USDA) with $28 billion in funding. Of this amount, the Recovery Act increased
the amount of SNAP benefits by 13.6 percent2 and provided $290.5 million in funding for State
Administrative Expenses to handle the anticipated increase in SNAP caseloads. As part of the
Recovery Act, Congress emphasized the need for accountability and transparency in the
expenditure of funds. Accordingly, the Office of Inspector General (OIG) initiated this audit to
assess the effectiveness of the State fraud detection efforts for SNAP. We also followed up on
six recommendations we made in prior OIG reports3 that dealt with the fraud detection units
(see exhibit A). We found that Food and Nutrition Service (FNS) fully implemented our
recommendations that the Colorado Department of Human Services (CDHS) establish a fraud
unit, and that both CDHS and New York’s Office of Temporary and Disability Assistance
(OTDA) strengthen their use of EBT management reports to detect and follow up on suspicious
and unusual SNAP transactions.

In our previous audit, OTDA determined that the management reports provided by its current
EBT processor were unreliable; therefore, it elected to use the EBT transaction data from the
State Fraud and Abuse Reporting system extract file, which would allow the agency to detect
improper EBT activity. Further, FNS is working with CDHS to reach an agreement on how its
fraud detection units can best use the EBT data available to identify, investigate, and disqualify
recipients involved in trafficking SNAP benefits.

Overall, we focused our audit efforts in two States, New Jersey and Florida, to assess FNS’
oversight of the States’ efforts to target recipients who fraudulently use their SNAP benefits.
This entailed ensuring that (1) proper internal control procedures were established, (2)
participants properly complied with program requirements, and (3) effective compliance
operations were established. We identified two issues relating to the States’ fraud detection
efforts:



1
  Public Law 111-5.
2
  The potential amount of benefits to be funded through the Recovery Act increased when estimates were prepared
for the (FY) 2011 budget. According to FNS, the Recovery Act funding for SNAP is now estimated to total over
$65 billion through FY 2019.
3
  Audit Report 27099-68-Hy, “Electronic Benefits Transfer System - State of Colorado,” June 2008, and Audit
Report 27099-16-Hy, “Electronic Benefits Transfer System - State of New York,” December 2001.

                                                                       AUDIT REPORT 27703-0002-Hy                 1
    ·    FNS did not require the States to use the management reports provided by their EBT
         processors; thus, neither State we visited was using these reports to identify potentially
         fraudulent activities by SNAP recipients for investigation or other follow up. In the
         course of our audit we identified over 2,600 questionable transactions using these reports,
         totaling over $181,700 for a 1-month period.

    ·    FNS did not establish an effective review process to periodically assess the States’ fraud
         detection efforts. The States’ management evaluation (ME) reviews did not address the
         efficiency and functioning of the fraud detection units. Instead, FNS relied upon the
         information collected by the States and reported in FNS’ annual State Activity Report
         (SAR), which we found to be of questionable accuracy in some cases. For instance, we
         noted that New Jersey State agency officials could not substantiate some of the
         information they reported to FNS. Although the State agency reported to FNS the
         issuance of 14 waivers where clients signed disqualification consent agreements,4 county
         reports to the State showed that 125 of these waivers were issued. State officials could
         not explain this discrepancy.

FNS has a management control structure in place that does not sufficiently assess the
effectiveness of the States’ fraud detection efforts. By addressing these concerns, FNS could put
in place a more robust control environment for assessing the States’ fraud detection efforts and
for targeting recipients that are fraudulently using their SNAP benefits.

This report consolidates the audit results from our two Fast Reports dated July 12, 2010, and
September 10, 2010. In its responses to the Fast Reports, FNS generally agreed with the findings
and recommendations, but believed that they were not necessarily applicable nationwide.
However, past audits5 have noted similar issues regarding the effectiveness of States’ SNAP
fraud detection efforts, including not using available EBT management reports. Therefore, we
believe the issues are not merely isolated cases. Addressing these issues nationwide6 could assist
other States in ensuring that effective internal controls are in place to identify potentially
fraudulent activities by SNAP recipients

Recommendation Summary
FNS should establish and provide guidance to States in identifying and assessing available EBT
management reports to determine which reports could be most useful to each State’s fraud
detection units. Furthermore, FNS needs to encourage States to utilize the EBT management
reports in detecting fraudulent activities and in following up on SNAP transactions that could be
indicative of fraudulent activities. FNS should require States to implement procedures for the
periodic review and analysis of management reports to detect and follow up on questionable
SNAP transactions. FNS should perform reviews as needed to determine the extent to which an

4
  This reflects the number of cases where individuals waived their rights to a hearing and did not contest the
disqualification period.
5
  Audit Report 27099-68-Hy, “Electronic Benefits Transfer System State of Colorado,” June 2008, and Audit Report
27099-16-Hy, “Electronic Benefits Transfer System State of New York,” December 2001.
6
  The recommendations from these two reports were directed only at the States where they were performed, and
were therefore not implemented on a nationwide basis.

2       AUDIT REPORT 27703-0002-Hy
assessment of State fraud detection efforts may be compromised by inaccurate information
provided by the States, and take corrective actions as necessary. FNS should also include as part
of their ME review process an assessment of the States’ fraud detection units.

Agency Response
In their response dated December 15, 2011, FNS officials agreed with the findings and
recommendations as presented in this report. We have incorporated portions of the FNS
response, along with our position, in the applicable sections of this report. FNS’ response to the
official draft report is included in its entirety at the end of this report.

OIG Position

Based on FNS’ response, we have reached management decisions on all recommendations in this
report.




                                                              AUDIT REPORT 27703-0002-Hy         3
Background and Objectives

Background
The Food and Nutrition Service (FNS), an agency within the Department of Agriculture
(USDA), administers nutrition assistance programs to provide children and needy families with
better access to food and a more healthful diet. The Supplemental Nutrition Assistance Program
(SNAP) is used to assist low-income individuals and families in obtaining a more nutritious diet
by supplementing their incomes with benefits to purchase food they need for healthy eating
choices. SNAP is administered by FNS through a Federal-State partnership in which USDA
pays the full cost of recipient benefits, and shares the cost to administer SNAP with the States.
Further, States distribute recipient benefits through an Electronic Benefits Transfer (EBT)
system, in which the recipient authorizes the transfer of benefits from a Federal account to a
retailer account to pay for products purchased. In fiscal year (FY) 2011, FNS disbursed over
$71.8 billion in SNAP benefits that were used by an average of 46 million participants
nationwide.

In response to the economic downturn, Congress passed the Recovery Act, which the President
signed into law on February 17, 2009. The Recovery Act increased the amount of SNAP
benefits by 13.6 percent 7 for food allotments over a 5-year period for SNAP and $290.5 million
in additional administrative expenses to handle the increasing caseloads.8 In order to meet the
accountability objectives of the Recovery Act, FNS was provided $4.5 million in administrative
expense funds to perform necessary management and oversight, monitor program integrity, and
evaluate the effect of payments made under the related sections of the Recovery Act.

Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency in the expenditure of the funds. On February 18, 2009, the Office of Management
and Budget (OMB) issued initial guidance that required Federal agencies to establish rigorous
internal controls, oversight mechanisms, and other approaches to meet the accountability
objectives of the Recovery Act.9 OMB issued additional guidance on April 3, 2009, to clarify
existing requirements and establish additional steps that were to be taken to facilitate the
accountability and transparency objectives of the Recovery Act. Moreover, OMB emphasized
that due to the unique implementation risks of the Recovery Act, agencies were to take steps
beyond their standard practice in initiating the additional oversight mechanisms. 10 According to
guidance issued by the Secretary of Agriculture, agencies were to develop transparent, merit-
based criteria to guide their discretion in committing, obligating, and expending funds under the
Recovery Act.



7
  The potential amount of benefits to be funded through the Recovery Act increased when estimates were prepared
for the (FY) 2011 budget. According to FNS, the Recovery Act funding for SNAP is now estimated to total over
$65 billion through FY 2019.
8
  The Recovery Act provided USDA with a total of $28 billion in funding for a number of program areas to assist in
achieving the purposes of the Recovery Act.
9
  Office of Management and Budget Memorandum M-09-10.
10
   Office of Management and Budget Memorandum M-09-15.

4     AUDIT REPORT 27703-0002-Hy
SNAP regulations specify functional areas to be addressed by the States; however, the
regulations do not establish standardized internal controls at the State level. FNS policy is to
allow the States the flexibility to establish internal controls that meet the needs of each individual
State. In addition to administering the day-to-day program operations, State agencies have the
primary responsibility for monitoring recipients’ compliance with program requirements and for
detecting and investigating cases of alleged intentional program violation.11 FNS’ Compliance
Branch is charged with monitoring program compliance by participating retailers. Federal
regulations12 require States to establish and operate fraud detection units in all areas in which
5,000 or more households participate in SNAP. The functions of fraud detection may be
performed by persons not employed by the State. For instance, the Florida State agency
contracted its fraud detection efforts to the Florida Department of Law Enforcement, while the
State agency in New Jersey established separate fraud detection units within each of its county
offices. Thus, the State agency provides oversight for each of the individual county fraud
detection units. Each fraud detection unit is responsible for detecting and investigating any case
of alleged intentional program violation committed by SNAP recipients.

Federal regulations13 require each State to obtain EBT management reports from its contracted
EBT processor to assist it with program management, operations, and performance of SNAP
operations. Each State can request the EBT processor to provide additional reports specifically
designed to assist in detecting potentially fraudulent activities by SNAP recipients. However,
due to the high cost associated with obtaining this information from the EBT processors and the
resulting impact on the overall cost of program operations, the FNS national office also
instructed States to limit their requests to only those reports they actually intend to review and
analyze.

In the past, the Office of Inspector General (OIG) found instances of ineffective controls over
EBT systems. OIG’s previous audits determined whether FNS had established effective controls
over EBT systems and whether FNS’ oversight of the States’ EBT system operations was
adequate. OIG reports addressed the need for fraud detection units and indicated that the States
were not utilizing the EBT management reports to identify, investigate, and disqualify recipients
involved in trafficking14 SNAP benefits. For example, in June 2008, we reported that the
Colorado Department of Human Services (CDHS) did not establish required fraud detection
units; further, we could not find support that CDHS used available EBT management reports to
monitor SNAP program operations for improper activity.15 Likewise, in December 2001, we



11
   Intentional program violation is defined as any act violating the Food and Nutrition Act, SNAP regulations, or any
State statute for the purpose of using, presenting, transferring, acquiring, receiving, possessing, or trafficking
authorization cards. Also, an intentional program violation is any act that constitutes making a false or misleading
statement or concealing or withholding facts.
12
   Title 7 Code of Federal Regulations (CFR) §272.4 (g) (4), January 1, 2009.
13
   Title 7 CFR §274.12 (j) (2), January 1, 2009.
14
   Food stamp trafficking is the buying and selling of food stamp benefits for cash or items not authorized under the
Food Stamp Act of 1977. This occurs when retailers and recipients violate the Food Stamp Program by accepting
and selling food stamp benefits for cash at less than par value or by purchasing unauthorized items such as tobacco
and alcohol, etc.
15
   Audit Report 27099-68-Hy, Electronic Benefits Transfer System State of Colorado, June 2008.

                                                                         AUDIT REPORT 27703-0002-Hy                5
reported that New York’s Office of Temporary and Disability Assistance (OTDA) needed to
improve its controls over EBT management reports.16

Objectives
The objectives of this audit were to assess FNS’ oversight of the State agencies’ efforts to
identify recipients fraudulently using their SNAP benefits. Specifically, our audit objectives
were to ensure that: (1) proper internal control procedures were established, (2) participants
properly complied with program requirements, and (3) effective compliance operations were
established. We also determined whether FNS took appropriate and timely actions to implement
prior OIG audit recommendations.




16
     Audit Report 27099-16-Hy, Electronic Benefits Transfer System State of New York, December 2001.

6        AUDIT REPORT 27703-0002-Hy
Section 1: FNS Needs to Strengthen Its Fraud Detection Efforts

Finding 1: EBT System Management Reports Need to Be Better Utilized
The two States we visited did not use the management reports provided by the EBT processors17
to identify potentially fraudulent activities by SNAP recipients for investigation or other follow
up. Both FNS and State officials attributed this to the fact that FNS had not specifically required
the States to use these reports, and because they believed there were other tools available such as
outside referrals18 to assist the States’ fraud detection activities. However, using the available
EBT management reports for both States over a 3-month period,19 we identified over
2,600 questionable and previously-undetected SNAP transactions totaling over $181,700, which
could potentially represent instances of recipient fraudulent activity. Additionally, we found
$4.5 million in manual transactions20 which likewise could be at a higher risk for potential
fraudulent activity. By not using these management reports, which every EBT processor is
required to provide, State fraud detection units have reduced assurance of being able to
proactively detect instances of recipient fraud that are not otherwise reported through such means
as referrals and hotline complaints.

Federal regulations21 require each State to obtain EBT system management reports from their
contracted EBT processors. These reports are intended to assist the States with program
management, operations, and performance. Additionally, each State can request the EBT
processor to provide reports specifically designed to assist in the detection of potentially
fraudulent activities by SNAP recipients. The EBT management reports are tools that allow
State fraud detection units to conduct proactive operations to detect the deliberate misuse of
SNAP benefits by recipients.

Our review of the EBT management reports from New Jersey and Florida disclosed several
instances of questionable transactions that indicate potential recipient misuse of SNAP benefits.
From each State, we selected the reports denoted as “fraud” reports provided by the EBT
processors, in addition to other EBT management reports that OIG used in prior audits22 that



17
   The State of New Jersey contracted its EBT services to Affiliated Computer Services and the State of Florida
contracted its EBT services to JP Morgan Electronic Financial Services.
18
   The term “outside referrals” refers to individuals such as private citizens, other State officials, and/or other
investigative entities who refer SNAP recipients for investigation.
19
   The overall timeframe for our analysis covered 3 months unless otherwise noted. For some reports, we analyzed
one month of data because of the complex design and format of the management reports.
20
   A manual transaction is an off-line food stamp transaction. The recipient purchases are authorized without
telecommunication between the point of sale device and EBT system. The retailer manually enters the recipient’s
information.
21
   Title 7 CFR §274.12(j) (2), January 1, 2009.
22
   Audit Report 27099-68-Hy, Electronic Benefits Transfer System State of Colorado, June 2008; Audit Report
27099-16-Hy, Electronic Benefits Transfer System State of New York, December 2001; Audit Report 27099-0023-
Ch, Monitoring of the Electronic Benefit Transfer System in Michigan, August 2002; Audit Report 27099-11-Te,
Electronic Benefit Transfer System Development State of Arkansas, September 2002; and Audit Report 27099-69-
Hy, JPMorgan EFS’ Oversight of EBT Operations, September 2007.

                                                                         AUDIT REPORT 27703-0002-Hy               7
resulted in identifying fraudulent activities. In total, we reviewed 1823 management reports:
5 reports from the State of Florida and 13 reports from the State of New Jersey (see exhibit B).
From six of these reports,24 we identified the questionable or potentially fraudulent transactions
discussed below:

     ·    The Out-of-State Activity Report identifies SNAP recipients who redeem the majority, if
          not all, of their benefits at retailers located outside the State in which they reside. Federal
          requirements25 allow a recipient to move out of State without reporting an address
          change; however, the Out-of-State Activity Report could be a useful tool for identifying
          recipients who might be receiving duplicate benefits in another State during the same
          period and have not reported their change in residence. In New Jersey, we identified
          312 questionable out-of-State transactions, totaling $14,900, for 1 month. In Florida, we
          identified 1,934 questionable out-of-State transactions, in excess of $83,000, for 1 month.

     ·    The Even-Dollar Transaction Report identifies unusual numbers of approved even-dollar
          SNAP transactions processed at retailer locations. These transactions could be indicative
          of fraudulent activities, since retail transactions are typically not in whole dollar amounts.
          Our review of this report in New Jersey disclosed 196 questionable transactions, totaling
          over $65,600, for 1 month. We were unable to review this particular EBT management
          report in Florida because State officials had not considered the report useful and had
          instructed the EBT processor not to provide it.

     ·    The Excessive Return Transaction Report26 identifies transactions in excess of thresholds
          established by the States, which involve refunds by retailers to SNAP recipients. Its
          purpose is to identify instances where refund transactions may be used to conceal the
          discounting27 of SNAP benefits for cash. In New Jersey our analysis disclosed
          192 questionable excessive return transactions totaling approximately $18,200. We were
          unable to review this particular EBT management report in Florida because officials did
          not request the report from its EBT processor.

     ·    The Manual Transaction Report is used to identify all activity where retailers manually
          enter SNAP recipients’ EBT card numbers into point-of-sale (POS) terminals.28 This
          management report is used to detect potentially fraudulent activities between a retailer
          and recipient where large numbers of manual entries are processed by the retailer. Our
          review of this report in New Jersey disclosed 122 retailers that processed more than

23
   All of these reports were different, except for the Out-of-State Activity and Manual Transaction Reports which
were available for both States.
24
   Of the six reports we reviewed, four reports were of SNAP recipient transactions from New Jersey and the
remaining two reports were from Florida.
25
   Simplified reporting requirements under the Farm Security and Rural Investment Act of 2002, Public Law
107-171, enacted May 13, 2002.
26
   For the Excessive Return Transaction Report, we reviewed and analyzed the information for additional months
outside of our stated timeframes because of an active investigation being conducted by the Office of Inspector
General – Office of Investigations. This report was available to one of two States reviewed.
27
   Exchanging SNAP benefits for cash at less than face value.
28
   A point-of-sale terminal is the equipment or system that is used to initiate electronic transactions from retailer
locations.

8        AUDIT REPORT 27703-0002-Hy
         400 manual transactions each during the month of our review, totaling over $4.4 million.
         These transactions represented 49 percent of the retailers’ total SNAP transactions for the
         month. Additionally, our review in Florida disclosed another 15 retailers whose manual
         transactions totaled over $155,000 for the month of our review. In total, the two State
         reports disclosed 137 retailers that manually processed over $4.5 million in SNAP
         benefits from recipients.

Officials in New Jersey stated that the EBT management reports, as designed, were time-
consuming to review and analyze, and ineffective in detecting the intentional misuse of SNAP
benefits by recipients. These concerns were largely due to the fact that the State’s county-based
fraud detection units had difficulty in adapting the existing Statewide reports for their use; this
concern, we believe, could be addressed by requesting that the reports’ format be changed to
reflect information at the county level. Officials from Florida likewise had not utilized the
management reports because they believed that their current process for detecting fraudulent
activities–which emphasized investigation of retailers in specific areas of the State–was more
effective.29 However, these reviews did not identify the more than 2,500 questionable
transactions that we found by reviewing the EBT management reports.

Although the FNS national office issued guidance30 to the States in December 2007 regarding the
EBT management reports, this guidance did not include specific requirements for State fraud
detection units to use the reports to strengthen their fraud detection efforts. In addition, FNS has
not provided guidance to assist the States in determining which of the available EBT
management reports could be useful to individual States based on their particular organizational
structures (e.g. centralized or county-based). FNS officials stated that it is up to the States to
determine the best methods to use in their fraud detection efforts, and stated that there are other
tools such as hotline complaints and outside referrals that are available to assist the State fraud
detection units in identifying fraudulent activities.

By not adopting a proactive approach to recipient fraud detection—such as that provided by the
EBT management reports —Federal and State officials could be potentially unaware of the
extent to which SNAP recipient fraud may exist within each State. In prior OIG31 and
Government Accountability Office (GAO)32 reports, EBT management reports were noted as
being useful in combating fraud within SNAP. Specifically, OIG’s report on the State of
Colorado’s EBT system disclosed that this State, much like the two States we visited in this
audit, did not use the management reports produced by its EBT processor to detect the potential
misuse of recipient benefits. By reviewing the available reports, including the Out-of-State
Activity Report and the Even-Dollar Transaction Report, we identified over $2 million in
questionable transactions between April and September 2006. In that report, OIG recommended
that FNS require Colorado to strengthen its fraud detection activities, including the assignment of
responsibilities to State and county staff for periodic review and analysis of management reports

29
   Based on the prior experience of the fraud detection unit, the State officials focused their attention on 3 of
21 circuits known to be trafficking areas. Circuits are multiple counties within specific areas within the State.
30
   Electronic Benefits Transfer Request for Proposal (RFP) Guidance, December 19, 2007.
31
   Audit Report 27099-68-Hy, Electronic Benefits Transfer System State of Colorado, June 2008.
32
   GAO/RCED-00-61, Food Stamp Program, Better Use of Electronic Data Could Result in Disqualifying More
Recipients Who Traffic Benefits, March 2000.

                                                                          AUDIT REPORT 27703-0002-Hy                9
to detect and follow up on suspicious and unusual SNAP transactions. (See exhibit A.) FNS
officials agreed with this recommendation and required the Colorado State agency to implement
the recommendation.

We reported our concern regarding States not using EBT management reports to FNS through a
Fast Report in September 2010 and made the following recommendations.

Recommendation 1
Provide guidance to States in identifying and assessing available EBT management reports to
determine which could be useful to State fraud detection efforts.

Agency Response
In their response dated December 15, 2010, FNS officials stated that the agency continues to
emphasize to States in meetings and other forums the importance of working with their EBT
processors to determine the best data available to help with fraud detection. Often it is not the
pre-packaged canned reports, but other ad-hoc or specially developed reports that would be most
helpful. States often have internal reports and data mining tools that are also extremely useful in
fraud detection efforts. Most States now require data warehouses and use those for internal fraud
analysis rather that paper reports. FNS encourages electronic fraud analysis methods and
continued to work with the States to re-design their approach, based on 15 years of experience
using the ALERT system, to develop more effective methods for client fraud detection. In
discussions surrounding the EBT RFP procurement process, FNS encouraged the States to:

     ·   Include contract language that allows the State to set parameters to focus on the more
         egregious problems and require the contractor to change parameters upon request at no
         cost;
     ·   re-organize and re-sort the content to identify higher-value fraud cases as opposed to the
         current categorization method that typically relies on case number, FNS retailer number,
         date, or time;
     ·   add new reports to address issues like high-volume card replacements;
     ·   expand data warehouse functionality to allow analysis or reports to cover client activity
         over multiple months; and
     ·   require standard and ad hoc data warehouse analysis tools for State fraud investigators.

FNS officials also agreed to document this advice with a more formal communication to the
States by March 31, 2012.

OIG Position
We accept FNS’ management decision.




10       AUDIT REPORT 27703-0002-Hy
Recommendation 2
Encourage States to utilize the EBT management reports in detecting fraudulent activities by
SNAP recipients and in following up on SNAP transactions that appear to be questionable. FNS
should also implement procedures requiring States to periodically review and analyze the
effectiveness of the EBT management reports for detecting fraudulent activities.

Agency Response
In their response dated December 15, 2011, FNS officials stated that they had issued a policy
memo to the States, dated October 14, 2011, conveying the expectation that States would use
FNS-provided data on retailer disqualifications to further investigate suspicious recipient EBT
transactions, which are included with the information the States receive. Management
Evaluation targets for FY 2012 include recipient integrity issues, particularly State fraud unit
activities including use of EBT and other appropriate data to identify potential recipient fraud. In
addition, FNS has developed an online document library on the FNS SNAP Partner Website for
sharing policies and best practices related to recipient integrity with the State agencies.

OIG Position
We accept FNS’ management decision.

Finding 2: FNS Needs to Strengthen Its Oversight of State Fraud Detection
Units
FNS did not establish an effective process to periodically assess the States’ fraud detection
efforts. FNS officials relied on management evaluation (ME) reviews and other sources of
information. However, the ME review process does not address fraud detection activities. Also,
we found the other sources of information used to monitor fraud detection to be inaccurate in
some instances. Without reliable controls that periodically verify State-reported data on
recipient fraud detection activities, FNS’ ability to assess program risks and improve SNAP
integrity and efficiency is jeopardized.

In FNS’ Recovery Act Plan,33 FNS officials stated that the Recovery Act requires an
unprecedented level of transparency, oversight, and accountability to ensure that funds are used
according to the Act’s requirements.34 According to the plan, FNS officials would rely on ME
reviews, financial management reviews, and quality control reviews to provide oversight of
Recovery Act funds. These reviews were also used prior to the Recovery Act to assess program
risk and to improve the integrity of program benefits. The ME review process covers specific



33
   United States Department of Agriculture Food and Nutrition Service, American Recovery and Reinvestment Act
Plan, dated May 13, 2009.
34
   The Recovery Act did not provide specific funding for State Fraud Activities; however, we assessed these controls
because the Recovery Act included a13.6 percent increase in benefits to SNAP participants.

                                                                       AUDIT REPORT 27703-0002-Hy               11
program target areas35 approved by FNS’ national office to measure compliance with policies,
procedures, and standards of timeliness as mandated by program regulations. These reviews are
performed by both the FNS regional offices and the States. States have the option to include
additional target areas for review as they deem necessary to ensure that FNS programs operate
efficiently and effectively. According to Federal regulations,36 each State is required to establish
and operate internal fraud detection units in all areas in which 5,000 or more households
participate in SNAP. Each fraud detection unit is responsible for detecting, investigating, and
assisting in the prosecution of program fraud committed by SNAP recipients.

During our assessment, we found that although both States had functioning fraud detection units,
as required by regulations, FNS officials did not review their efficiency. Our review in New
Jersey and Florida disclosed that only New Jersey included reviews of its fraud detection unit as
a supplemental target area in its ME reviews; however, rather than assessing the effectiveness of
fraud detection efforts, these reviews were limited to ensuring that salaries attributed to each
fraud investigator were solely for the purpose of performing fraud-related activities. As a result,
ME reviews in these States were not being used as a tool to evaluate the States’ fraud detection
units’ efficiency and effectiveness in accomplishing their assigned mission.

According to an FNS official, reviews to determine the efficiency and effectiveness of States’
fraud detection units were not considered necessary because the annual State Activity Report
(SAR)37 was sufficient to ensure that States devoted adequate resources to fraud detection. FNS
primarily relied upon this reported information to assess the effectiveness of the States’ fraud
detection units each year. However, we found that the information within these reports, most
notably the Program Activity Statement (FNS-366B), was unreliable.38

We reviewed the FY 2008 and FY 2009 FNS-366B reports from both States we visited. The
State of New Jersey conducted its SNAP operations at the county level, with the State providing
management oversight. For this State, we found differences between the information reported to
FNS on the FNS-366B’s by the State agency and the information reported to the State agency by
the county offices.39 For example, we noted that in FY 2009 New Jersey county offices reported
to the State agency the issuance of 125 waivers where clients signed disqualification consent
agreements.40 However, we found that State officials incorrectly reported the issuance of only
14 of these waivers to FNS on the FNS-366B’s. Similarly, our review of the FY 2008

35
   Target areas are identified by FNS as critical program areas to be monitored by the States during the subsequent
fiscal year for the successful operation of SNAP nationwide.
36
   Title 7 CFR, §272.4 (g) (4), January 1, 2009.
37
   The SAR is a compilation of both State-reported data and data calculated from information provided by the States,
such as participation rates, investigations, prosecutions, disqualifications, and claims. FNS’ national office prepares
the SAR from information reported by each State in the Program and Budget Summary Statement Part B – Program
Activity Statement (FNS-366B) report. This report summarizes each States’ SNAP activity annually.
38
   The FNS-366B is used by States to report information on SNAP operations, such as participation rates,
investigations, prosecutions, disqualifications, and claims. This information is used to produce the SAR which FNS
officials rely upon to assess the effectiveness of States’ fraud detection units.
39
   Each State has the option to administer SNAP operations on either a Statewide or county-level basis. States that
elect to administer their SNAP operations at the county level act as oversight at the State level.
40
   Disqualification consent agreements reflect the number of cases where individuals waived their right to a hearing,
but did not contest the disqualification period.

12      AUDIT REPORT 27703-0002-Hy
information disclosed that the county offices reported 131 instances where decisions rendered
during the administrative hearing process were upheld; however, State officials incorrectly
reported only 18 to FNS. We conducted visits to five county offices and found that some
information could not be validated because of inadequate record keeping. According to State
officials, the State agency does not require supporting documentation to be submitted by county
offices to validate the information reported. When we questioned State agency officials on the
differences between what the county offices reported to the State agency and what the State
agency reported to FNS, these officials could not explain the discrepancies.

During our visit to Florida, we found that non-SNAP cash benefits were reported on the FNS-
366B.41 According to a State official, the inclusion of non-SNAP benefits on the FNS-366B was
incorrect; however, the error went unnoticed until we raised the question. Further, the State
official attributed the error in part to the continued use of outdated guidance, which required the
inclusion of cash benefits in one section of the FNS-366B report. The updated guidance, issued
on November 30, 2007, dispensed with the reporting requirements for cash benefits, yet the
Florida officials continued to include cash benefits.

Other than the ME reviews and the SAR, FNS has not implemented methods for assessing the
effectiveness of States’ fraud detection efforts. In our Fast Report 27703-02-Hy (1), dated July
12, 2010, we recommended that FNS identify and implement a process for periodically assessing
the States’ fraud detection units. In addition, we are recommending that States’ fraud detection
units be assessed as part of the ME process.

Recommendation 3
Perform reviews as needed to determine the extent to which FNS’ assessment of States’ fraud
detection efforts is compromised by the absence of ME reviews of the effectiveness of State
fraud detection efforts and by inaccurate information provided by the States on SAR reports.
Take corrective actions as necessary.

Agency Response
In their response, dated December 15, 2011, FNS officials stated that Management Evaluation
targets for FY 2012, as communicated to the FNS regional offices in a memo dated August 18,
2011, included recipient integrity issues, particularly State fraud unit activities. Through the ME
process, FNS will work with States to ensure appropriate corrective actions are in place when
findings occur. FNS expects to complete these actions by September 30, 2012.

OIG Position
We accept FNS’ management decision.



41
 Non-SNAP cash benefits are provided through the Temporary Assistance for Needy Families program, which is a
Department of Health and Human Services program administered by the State.

                                                                  AUDIT REPORT 27703-0002-Hy             13
Recommendation 4
Include as part of the ME review process an assessment of the States’ fraud detection units.

Agency Response
In their response dated December 15, 2011, agency officials stated that an FNS work group,
including national and regional office staff, is currently revising and updating standardized ME
review module focused on State fraud detection units. The work group expects to complete its
work so that the regional offices can test and implement the module by March 31, 2012.

OIG Position
We accept FNS’ management decision.




14     AUDIT REPORT 27703-0002-Hy
Scope and Methodology
We performed our audit fieldwork from April 2009 through May 2011 at the FNS Headquarters
in Alexandria, Virginia; two FNS regional offices in Robbinsville, New Jersey, and Atlanta,
Georgia; two FNS State agencies in Trenton, New Jersey, and Tallahassee, Florida; and five
county offices in New Jersey.

To accomplish our objectives, we conducted interviews with FNS and State officials; reviewed
program regulations; analyzed EBT management reports; and assessed program policies,
procedures, and internal controls relating to SNAP. We also assessed the implementation of
selected recommendations made from two prior OIG reports related to the scope of this audit.
However, we did not review the EBT systems or assess the integrity of the data in the system as
information system controls were not part of our audit objective.

We selected three States to review the effectiveness of the States’ efforts in detecting fraudulent
activities by SNAP recipients. However, after we completed the fieldwork from the first two
States, we determined that we did not need to complete the final State to meet our audit
objectives. The results from our first two States—that FNS lacks adequate oversight of its
States’ fraud detection units—were similar to the issues disclosed in a prior audit.42

We judgmentally selected the States and the applicable FNS regional offices based on our
analysis of the FY 2007 payment error rate data compiled by FNS; current information was not
available at the time of our review. The States we selected met one of the following criteria:
highest total overpayment error rate, second lowest overpayment error rate, and total issuance.

To assess the effectiveness of the State fraud detection units, we visited the fraud unit in
Tallahassee, Florida, and judgmentally selected five county offices in New Jersey to conduct on-
site reviews.43 To judgmentally select the county offices for our review, we based our analysis
on current SNAP household data maintained by the State.44 We judgmentally selected 5 of
21 (25 percent) county offices to represent each class of project area (small, medium, and
large).45 We reviewed and evaluated supporting documentation for the program and both FNS
and State oversight of fraud detection activities. In addition, we reviewed and analyzed a total of
18 EBT management reports for calendar years 2009 and 2010 to determine the States’ efforts in
detecting suspected fraudulent recipient activities. (See exhibit B.)




42
   We did not visit one State and its applicable regional office located in Dallas, Texas, because of consistent issues
as identified in the previous two States visited. Further, a prior audit - “Electronic Benefits Transfer System State of
Colorado,” Audit Report 27099-68-Hy - disclosed discrepancies of the same nature.
43
   The State of New Jersey has elected to operate a fraud detection unit within each county office in its State.
44
   New Jersey Department of Human Services – Number of Participating Households, Person, Adults and Children
by County, dated June 2009. The State of New Jersey contained 21 counties in total.
45
   The three classes of project areas are defined according to the monthly total caseload of active participants. A
small project area is defined as having 2,000 or fewer participants. A medium project area is defined as having
2,001 to 15,000 participants. A large project area is defined as having more than 15,000 participants. We selected
two large county offices, two medium county offices, and one small county office.

                                                                         AUDIT REPORT 27703-0002-Hy                 15
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




16     AUDIT REPORT 27703-0002-Hy
Abbreviations
ATM............................ Automated Teller Machine
CDHS ............................Colorado Department of Human Services
CFR ............................. Code of Federal Regulations
EBT ............................. Electronic Benefits Transfer
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
GAO............................ Government Accountability Office
HHS...............................U.S. Department of Health and Human Services
ME............................... Management Evaluation
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OTDA ......................... Office of Temporary and Disability Assistance
POS ............................. Point-of-Sale
SAR............................. State Activity Report
SNAP .......................... Supplemental Nutrition Assistance Program
USDA.......................... U.S. Department of Agriculture




                                                                  AUDIT REPORT 27703-0002-Hy   17
Exhibit A: Implementation of Prior Audit Recommendations
This exhibit addresses the complete implementation of select recommendations provided in
Audit Report 27099-68-Hy, “Electronic Benefits Transfer System - State of Colorado, dated June
2008,” and Audit Report 27099-16-Hy, “Electronic Benefits Transfer System - State of New
York, dated December 2001.”

No.                Prior Audit Recommendation                         Corrective Action
                                                                        Implemented
                    (Audit Report 27099-68-Hy)
7     Direct CDHS to develop and implement internal control                  Yes
      procedures that require routine oversight of EBT system
      activities for SNAP. The controls should include the
      assignment of responsibilities to State and county staff for
      periodic review and analysis of management reports to
      detect and follow up on unusual SNAP transactions.
8     Require that CDHS establish fraud detection units to                   Yes
      detect, investigate, and assist in the prosecution of
      recipient SNAP trafficking and periodically report the
      results of their activities to FNS’ Mountain Plains
      Regional Office.
9     Work with CDHS to reach an agreement on how fraud                      Yes
      detection unit(s) can best use the EBT data now available
      to identify, investigate, and disqualify recipients involved
      in trafficking.
10    Establish an action plan with specific milestone dates to              Yes
      periodically perform a review to assess CDHS’
      compliance with Federal SNAP requirements for fraud
      detection and initiate corrective actions for any
      deficiencies identified.
                   Prior Audit Recommendations
                    (Audit Report 27099-16-Hy)
6     Direct OTDA to better utilize management reports in                    Yes
      order to more effectively monitor the EBT system,
      especially the reports used to detect potential improper
      activity.
8     Direct OTDA to obtain from Citicorp EFS reports in an                  Yes
      electronic data file format in order to more effectively
      monitor potential improper activity. These include
      monthly manual transaction usage and automated teller
      machine (ATM)/POS Out-of-State Usage reports.



18     AUDIT REPORT 27703-0002-Hy
Exhibit B: EBT Management Reports Reviewed
This exhibit identifies the EBT management reports we reviewed for the States of New Jersey
and Florida. We included the name of the report, and its intended purpose, as defined by the
respective States.
New Jersey


Name of Report                  Description
Even Dollar Transaction         This monthly transaction report identifies monthly approved,
Report                          even dollar SNAP transactions over a State-defined amount.
Exceeded PIN Attempts Report    This report contains a list of the recipients’ accounts that
                                exceed the State-defined number of invalid PIN attempts for a
                                specific time period. The State of New Jersey has selected
                                5 invalid PINs as their threshold for followup.
Excessive Return Transaction    This monthly report identifies approved SNAP transactions
Report                          over a State defined amount.
Manual Card Entry Report        This monthly report identifies approved SNAP transactions
                                where the recipient’s personal activity number was manually
                                entered into the POS terminal at the retailer location.
Retailer Manual Entry           This report provides a summary of the count and amount of
Summary                         manually-entered transactions performed by a retailer if the
                                number of manually-entered transactions reaches a State-
                                defined threshold.
Out-of-State Activity Report    A monthly transaction report of all recipient transactions
                                occurring outside of the State
After Hours Report              This monthly report identifies transactions occurring between
                                the hours of 2am and 5am EST.
Full FS Balance Withdrawal      This monthly report identifies transactions in which the full
Report                          authorized SNAP amount is withdrawn in one transaction.
Multiple Withdrawals Within     This monthly report lists approved SNAP withdrawals made by
1Hour Report                    the same personal activity number within a defined timeframe.
Refund Activity Report          This report details at a benefit authorization level the refunds
                                that have occurred.
Excessive Dollar Transaction    This monthly report identifies retailers with at least 5 approved
Report                          SNAP transactions in a month over a State-defined amount.




                                                           AUDIT REPORT 27703-0002-Hy           19
Exhibit B: EBT Management Reports Reviewed

Transactions Attempted on    This monthly report identifies transactions performed against
Invalid Cards                cards with a status other than “Active.”
Retailer Adjustment Report   This report identifies retailer adjustments made to the retailer’s
                             account.




Florida


Name of Report               Description
Daily Manual Authorization   This report identifies all active, expired, released, or new hold
Report                       manual authorization (vouchers) for the day.
Production Logon Report      This report provides a listing of approved users and their level
                             of access.
ATM/POS Out-of-State Usage   This report provides the information of recipients that have
Report                       three or more out-of-State transactions within 60 days.
Lost/Damaged/Stolen Card     This report provides a total for the amount of cards lost,
Report                       damaged, stolen, compromised, unauthorized, household, or
                             other.
Manual Transactions Report   This report lists all manual authorization (voucher) transaction
                             activity for the month.




20     AUDIT REPORT 27703-0002-Hy
Agency’s Response




                 USDA’S
       FOOD AND NUTRITION SERVICE
        RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 27703-0002-Hy   21
United States
Department of    DATE:          December 15, 2011
Agriculture
                 AUDIT
                 NUMBER:        27703-02-HY
Food and
Nutrition
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          Audrey Rowe /S/
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:       State Fraud Detection Efforts for the Supplemental Nutrition Assistance
                                Program (SNAP)


                 This letter responds to the official draft report for audit report number 27703-02-HY,
                 State Fraud Detection Efforts for the Supplemental Nutrition Assistance Program
                 (SNAP). Specifically, the Food and Nutrition Service (FNS) is responding to the four
                 recommendations within the report.

                 OIG Recommendation 1:

                 Provide guidance to States in identifying and assessing available EBT management
                 reports to determine which could be useful to State fraud detection efforts.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. FNS continues to emphasize to States in
                 meetings and other forums the importance of working with their EBT processors to
                 determine the best data available to help with fraud detection. Often it is not the pre-
                 packaged canned reports, but other ad-hoc or specially developed reports that would be
                 most helpful. States often have internal reports and data mining tools that are also
                 extremely useful in fraud detection efforts. Most States now require data warehouses
                 and use those for internal fraud analysis rather than paper reports. FNS encourages
                 electronic fraud analysis methods and continues to work with the States to re-design
                 their approach, based on our 15 year experience using the ALERT system, to develop
                 more effective methods for client fraud detection. In discussions surrounding the EBT
                 RFP procurement process, FNS encourages the States to:

                       include contract language that allows the State to set parameters to focus on the
                       more egregious problems and require the contractor to change parameters upon
                       request at no cost;
                                                                                    P age |2




       re-organize and re-sort the content to identify higher value fraud cases as opposed
       to the current categorization method that typically relies on case number, FNS
       retailer number, date, or time;
       add new reports to address issues like high volume card replacements;
       expand their data warehouse functionality to allow analysis or reports to cover
       client activity over multiple months;
       and to require standard and ad hoc data warehouse analysis tools for State fraud
       investigators.

FNS will be documenting this advice with a more formal communication to States in
early 2012.

On October 14, 2011, FNS issued a policy memo stating FNS’ expectation that States
will use the results of FNS retailer disqualification actions to investigate and penalize
recipients for trafficking. The policy memo provided guidance regarding the use of data
that FNS provides to States documenting retailer disqualifications as a potent source of
evidence in recipient trafficking cases. FNS shares information with States regarding
retail stores found guilty of trafficking SNAP benefits and therefore permanently
disqualified from participation in the SNAP. FNS provides the States copies of letters
notifying retailers of their disqualification from SNAP and the data/evidence supporting
the disqualification. The data and other information FNS shares with States contain
household transactions that FNS has determined meet patterns indicative of trafficking.
FNS expects States to use this information to determine which recipient cases need
further investigation.

Under Secretary Concannon sent a letter to all State SNAP commissioners on June 21,
2011, reiterating the critical importance of integrity, encouraging all States to be even
more active and vigilant in this area, including the use of available data. On November
15, 2011, Under Secretary Concannon also sent a letter to all State Governors
highlighting recent initiatives by FNS to help States combat fraud and to express FNS’
continued commitment to work with States to strengthen Program integrity.

FNS developed an online document library on the FNS SNAP Partner Web site for
sharing with State agencies policies and best practices related to recipient integrity.

Estimated Completion Date: March 31, 2012


OIG Recommendation 2:

Encourage States to utilize the EBT Management Reports in detecting fraudulent
activities by SNAP recipients and in following up on SNAP transactions that appear to be
questionable. FNS should also implement procedures requiring States to periodically
review and analyze the effectiveness of the EBT management reports for detecting
fraudulent activities.




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                    P age |3




Food and Nutrition Service Response:

See full response to Recommendation 1 above. FNS continues to emphasize to States in
meetings and other forums, the importance of working with their EBT processors to
determine the best data available to help with fraud detection. Often it is not the pre-
packaged canned reports, but other ad-hoc or specially developed reports that are needed.
States often have internal reports and data mining tools that are also extremely useful in
fraud detection efforts.

FNS issued a policy memo on October 14, 2011, conveying the expectation that States
use FNS provided data on retailer disqualifications to further investigate suspicious
recipient EBT transactions, which are included with the information the States receive.
Management Evaluation (ME) targets for FY 2012 include recipient integrity issues,
particularly State fraud unit activities including use of EBT and other appropriate data to
identify potential recipient fraud.

Furthermore, Under Secretary Concannon sent a letter to all State SNAP commissioners
on June 21, 2011, reiterating the critical importance of integrity, encouraging all State to
be even more active and vigilant in this area, including the use of available data. On
November 15, 2011, Under Secretary Concannon also sent a letter to all State Governors
highlighting recent initiatives by FNS to help States combat fraud and to express FNS’
continued commitment to work with States to strengthen Program integrity.

FNS developed an online document library on the FNS SNAP Partner Web site for
sharing with State agencies policies and best practices related to recipient integrity.

Completion Date: October 14, 2011

OIG Recommendation 3:

Perform reviews as needed to determine the extent to which FNS’ assessment of States’
fraud detection efforts is compromised by the absence of Management Evaluation (ME)
reviews of the effectiveness of State fraud detection efforts and by inaccurate information
provided by the States SAR reports. Take corrective actions as necessary.

Food and Nutrition Service Response:

FNS agrees with the recommendation that reviews of State fraud detections be
conducted. Towards that end, ME targets for FY 2012, as communicated to the FNS
regional offices in a memo dated August 18, 2011, include recipient integrity issues,
particularly State fraud unit activities. Through the ME process, FNS will work with
States to ensure appropriate corrective actions are in place when findings occur.

Estimated Completion Date: September 30, 2012




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                 P age |4




OIG Recommendation 4:

Include as part of their ME review process an assessment of the State’s fraud detection
unit.

Food and Nutrition Service Response:

FNS agrees with this recommendation. An FNS work group, including national and
regional office staff, is currently revising and updating a standardized ME review module
focused on State fraud detection units. The work group expects to complete its work so
that the regional offices can test and implement the module during the second quarter of
FY 2012.

Estimated Completion Date: March 31, 2012




                             AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

   Office of Management and Budget (1)

   Government Accountability Officer (1)

   Office of the Chief Financial Officer
    Director, Planning & Accountability Division (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
